Supreme Court, US.
FILED

AUG 1 9 2021
No.
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
In Forma Pauperio

Carl William Frazier
(Your Name)

— PETITIONER

vs.
The State of California

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

The Supreme Court of California
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Carl William Frazier
(Your Name)
California Medical Facility
PO Box 2000, BK-5374 N237L
(Address)

pi

Vacaville, CA, 95696-2000
Vi/ UUU
(City, State, Zip Code)

9165591827
(Phone Number)

My wife Christina

QUESTION(S) PRESENTED
1. In a murder case, may a defendant's inherently assaultive felonious conduct - ie, the use of a knife for
the purpose of unreasonagle self-defense - afford a gasis for a sun suponte instruction on the lesserincluded offence of invouluntary manslaughter, when there is substantial trial evidence that the defendant
used the knife intending to keep a rapidly-approaching attacker (the victim) at bay but not intending to hit the
attacker with the knife, and the defendant's failure to exercise "due caution and circumspection" resulted in
an unintended, single, fatal knife wound?
2.
In a murder case, does prejudicial, reversible error necessarily result from a trial court's failure to
instruct sua sponte a jury on how to consider the mental state of a defendant who exhibits the absence of
malice via a lack of "due caution and cicumspection" (criminal negligence) - when supported by substantia!
trial evidence - as an intermediate mental state (supporting a conviction for invoulntary manslaughter)
between malice aforethought (supporting a conviction for murder) and actual innocence (supporting acquittal
of murder)?
3.
Did the trial court prejudicially violate petitioner's Fifth, Sixth, and Fourteenth Amendment rights by
failing to instruct sua sponte the jury on the lesser - included offense of invouluntary manslaughter based on
a petitioner's criminal negligence, which instruction was supported by substantial trial evidence?
4. Were petitioner's federal - due - process rights voilated because there was insufficient evidence to
support a jury finding of deliberation and premeditation as to the murder charge?

LIST OF PARTIES

[ % All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Federal Cases

State Cases
In re Christian S. (1994) 7 Cal. 4th 768

Chapman v. California (1967) 386 U.S. 18
[87 S.Ct. 824, 17 I. Ed 2d 705]

People v. Abilez (2007) 41 Cal. 4th 472

Hedgpeth v. Pulido (2008) 555 U.S. 57
[129 S.Ct. 530, 172 L.Ed.2d 388]

People v. Anderson (1968)
70 Cal.2d 15

Hicks v. Oklahoma (1980) 555 U.S. 343 [100
S.Ct. 2227, 65 L.Ed.2d 175]

People v. Barton (1995) 12 Cal.4th 186
People v. Blakeley (200) 23 Cal. 4th 82

Jackson v. Virginia (1979) 443 U.S. 307 99 S.Ct.
2781,61 L.Ed.2d 560]
Kentucky Dept of Corrections v. Thompson (1989)
490 U.S. 454 [109 S.Ct 1904, 104 L.Ed.2d 506]

People v. Boatman (2013) 221 Cal.App.4th 1253
People v. Breverman (1998) 19 Cal.4th 142
People v. Brothers (2015) 236 CalApp.4th 24

Nederv. United States (1999) 527 U.S. 1
[119 S.Ct. 1827, 144 L.Ed.2d 35]
Olim v. Wakinekona (1983) 461 U.S. 838
[103 S. Ct. 1741, 75 L.Ed.2d 813]

People v. Bryant (2013) 56 Cal.4th 959
People v. Bryant (2013) 222 Cal.App.4th 1196
People v. Burroughs 1994) 35 Cal.3d 824

O'Sullivan v. Boerckel (1999) 526 U.S. 838
[119 S.Ct. 1728, 144 L.Ed.2d 1]
State Cases
In re Christian S. (1994) 7 Cal. 4th 768

People v. Chun (2009) 45 Cal.4th 1172
People v. Cook (2006) 39 Cal.4th 566
Donnlo w

MQ7Q\ OR 0*1 OH Aftft

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A
Decision of State Court of Appeals
APPENDIX B
Decision of State Supreme Court Denying Review
APPENDIX C
Order of State Supreme Court Denying Rehearing
APPENDIX D

APPENDIX E

APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Chapman v. California (1967) 386 U.S. 18 [87 S.Ct. 824, 17 L.Ed.2d
Hedgpeth v. Pulido (2008) 555 U.S. 57 [129 s.Ct 530, 172 L.Ed.2d
Hicks v. Oklahoma (1980) 555 U.S. 343 [100 S.Ct. 2227, 65 L.Ed.2d
Jackson v. Virginia (1979) 443 U.S. 307 99 S.Ct. 2781,61 L.Ed.2d
Kentucky Dept of Corrections v. Thompson (1989)490 U.S. 454 [109 £
Neder v. United States (1999) 527 U.S. 1 [119 S.Ct. 1827, 144 L.Ed.2<
Nederv. United States (1999) 527 U.S. 1 [119 S.Ct. 1827, 144 L.Ed.2c
Olim v. Wakinekona (1983) 461 U.S. 838 [103 S. Ct. 1741, 75 L.Ed.2d
O'Sullivan v. Boerckel (1999) 526 U.S. 838 [119 S.Ct. 1728, 144 L.Ed.

Continued on next pg.
STATUTES AND RULES
Federal Constitution
Fifth Amendment; Sixth Amendment; Fourteenth Amendment
State Constitution
Article 1, section 7 ; Article 1, section 15 ; Article 1, Section 24
State Statutes
Penal Code s 192, supd.. (b)
State Court Rules
California Rules of Court, rule 8.500; California Rules of Court, rule 8.508
Secondary Materials
CALCRIM No. 580 ; “Related Issues" section to CALCRIM No. 580 (2020 ed.), p. 357
OTHER

People v. Soojian (2010) 190 Cal.App.4th 238
People v. Steger (1976 16 Cal.App.4th 491
People v. Steger (1976) 16 Cal.3d.539
People v Thomas (1945) 25 Cal.3d 539
People v. Turk (2008) 164 Cal.App.5th 1007
People v. Watson (1981) 30 Cal.3d 290
People v. Wear (2020) 44 Cal.App.5th 1007
People v. Williams (2018) 23 Cal.App.5th 396
People v. Woodward (1979) 23 Cal.3d 329

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
DO For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix D____to the petition and is
[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
DO is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
f and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

fyQ For cases from state courts:
The date on which the highest state court decided my case was 05/18/2021
A copy of that decision appears at Appendix D_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Review is being sought herein, pursuant to rule 8.500 (b) (1) of the California Rules of Court, in order
to secure uniformity of decision and/or to settle the important questions of California law that are
posed in Issues 1 and 2.
In People v. Burroughs (1984) 35 Cal.3d 824, overruled on another ground in People v Blakeley
(2000) 23 Cal. 4th 82, this Court declared: “We agree that the only logically permissible construction
of section 192 is that an unintentional homicide committed in the course of a Non inherently
dangerous felony may properly support a conviction of involuntary manslaughter, if that felony is
committed without due caution and circumspection.” (Burroughs, supra, 35 Cal.3d at p. 835.) “’Due
caution and circumspection’ within the meaning of section 192 is equivalent to criminal negligence,
which is conduct that is “’such a departure from what would be the conduct of an ordinarily prudent or
careful man under the same circumstances as to be incompatible with a proper regard for human life,
or in other words, a disregard of human life or indifference to consequences.’” (People v. Penny
(1955) 44 Cal.2d 861,879.)” (Burroughs, supra, 35 Cal.3d at p 835, fn.9, italics added.)

In Blakel, this Court held that “when a defendant, acting with conscious disregard for life and the
knowledge that the conducts is life-endangering, unintentionally but unlawfully kills while having an
unreasonable but good faith belief in the need to act in self-defense,” the defendant is guilty of
voluntary manslaughter. (Blakeley, supara, 23 Cal4th at pp. 85, 88-89,91 (maj. Opn. Of Kennard, J.),
italics added.) “in his dissenting opinion in case, Justice Mosk contends that a defendant who kills in
unreasonable self-defense may sometimes be guilty of involuntary manslaughter. We have no quarrel
with this view." (Id. At p 91 (maj. Opn ), bold italics added.)
In his dissent in Blakeley, Justice Mosk said:Y’[A}n actor who entertains an actual, but unreasonable,
belief in imminent danger of death or great bodily injury may happen not to harbor malice
aforethought implied in a wonton disregard for human life. Wantonness, at least, may be lacking. To
quote Flannel’s 2 categorical statement....:”[M}allice [aforethought],’ including, of course, implied
malice aforethought, "cannot coexist with such [a} ...belief’...To quote Christian S.,3 which is
categorical as well: A person “who acts with” an “actual belief in the necessity for self-defense does
not act with the ... required” wantonness."
(Blakeley, supra, 23 Cal.4th at p. 99, fn. 2 (dis. Opn. Of Mosk, j.) origi Justice Mosk continued:
That an actual, but unreasonable, belief in imminent danger of death or great bodily injury may prove
to be preclusive with respect to the mental state required for voluntary manslaughter, namely, a state
of mind that amounts in fact to malice aforethought, leads to no untenable result. Surely, it does not
grant any immunity to any actor who commits an unlawful killing. For practically by definition, an actor
who entertains such belief acts “without due caution and circumspection" (Pen. Code, S 192, subd.
(b).) Hence if he is guilty of nothing else, he must be guilty of involuntary manslaughter.
In People v. Bryant (2013) 56 Cal. 4th 959 (“Bryant 1"), this Court concluded that :a killing without
malice in the commission of an inherently dangerous assaultive felony is not voluntary manslaughter.”
(Bryant I, supra, 56 Cal.4th at p. 970, italics added.) The Court reasoned:

STATEMENT OF THE CASE
Solely for the purposes of this Petition for Review (and subject to the objections in the rehearing
petitin regaurdering the objections in the rehearing petition regarding the Opinion’s omission or
misstatement of material facts or issues), petitioner adopts the statements of the case and facts set
forth in the “Background” section 2-7, of the Opinion. (Es. A, Opn., pp.2-7.)
Because there was insufficient evidence to satisfy the deliberation/premeditation requirement for firstdegree murder, petitioner's federal due-process rights were violated, and the Court should modify the
judgement to reduce the Count 1 conviction to second-degree murder.
The prosecution failed to sustain its burden of proving, beyond a reasonable doubt, each and every
element required for conviction of first-degree murder with deliberation-and premeditation ( Count 1),
as is required by the due-process clauses of the Fourteenth Amendment, and of article I, sections 7,
15 and 24 of the California Constitution.5 (U.S. Const., 14th Amend.; Cal. Const., art. I, ss7,15& 24;
Jackson v Virginia (1979) 443 U.s. 307, 317-320, 324, fn. 16[99S.Ct. 2781,61 L.Ed.2d 560]; People
v Rowland (1992) 4 Cal.4th 238, 269; People v. Jimenez (2019) 35 Cal.App.5th 373,391-392.) For
the reasons which follow, based on the entire record, there was insufficient evidence to support the
requirement that pettitioner deliberated and premeditated the murder of the victim (Curtis). Hence, the
Supreme Court should modify the judgement to reduce the Count 1 crime from first-degree murder to
second-degree murder.
A. The Anderson factors for deliberation and premeditation are not satisfied. 6
When viewed through the Anderson “optic,” the trial evidence does not suffice to support the
requirements for deliberation and premeditation:
As to the first Anderson factor or guideline, there is no evidence of any “planning” activity” “intended
to result in [] the killing” of the victim (Curtis). (Anderson, supra, 70 Cal.2d at pp. 26-27.) There is no
direct or circumstantial evidence, and no reasonable inference to be drawn from any trial evidence,
either that petitioner brought along a knife with him, with the intent to kill Curtis, when driving to pick
up a stranded and cold Curtis (and his “girlfriend" Castro); or that petitioner ever formed any intent to
kill (or even harm or hit) Curtis before picking him pu. (See e.g., People v. Williams (2018)23
Cal.App.5th 396, 411.)

circumspection, inflicted an unintended, single, and fatal knife wond, the trial court should have
instructed sua sponte on involuntary manslaughter.
Looking at the trial evidence in the light most favorable to the defense (People v. Millbrook: (2014) 222
Cal.App.4th 1122,11137; People v. Turk (2008) 164 Cal.App.4th 1361,1368, fn. 5; see also People v.
Mentch (2008) 45 Cal.4th 274, 290), there was substantial trial evidence that petitioner believed he
needed to continue to protect himself, without the benefit of his knocked-off glasses, from his rapidlyapproaching attacker (Curtis), who was yelling out the intent to "whoop your ass," in the utter darkness
outside of petitioner's crashed car. Petitioner song knife solely to ward off the attack.
Substantial evidence supported the sua sponte instruction on involuntary manslaughter
Viewed in the light most favorable to petitioner, the trial evidence supported a sua sponte instruction
on involuntary manslaughter:
There was no prior "bad blood" or altercation of any kind between petitioner and victim. Petitioner,
Curtis, and Castro spent at least an hour together, without incident, in petitioner's car, smoking and
being under the influence of crack cocaine. The victim's autopsy revealed he had about three times the
amount of cocaine metabolite that petitioner had in his. (1 RT 250-255, 291.)
When petitioner insisted that he needed to go home and get some sleep before rising for a job in the
morning, and he needed to drop of Curtis and Castro, Curtis wanted to keep driving around and looking
for more cocaine, became verbally and then physically belligerent, jumping atop petitioner, while
petitioner was driving, causing petitioner's car to crash into bushes by a residential intersection. (3RT
726-731, 738, 760, 763-767, 836.)
Petitioner's criminally-negligent and circumspection." (AOB, pp. 97-98.) (Penny, supra, 44 Cal.2d at p.
879; Burroughts, supra, 35 Cal.3d at p. 835 & fn.9; Bryant I, supra, 56 Cal.4th at p. 966; Brothers, supra,
236 Cal.App^ at p. 31; see also People v. McGee (1947) 31 Cal.2d 229, 238 ["if defendant, as he
testified, discharged the pistol with intent to frighten, and not to shoot deceased, and such act was done
in the exercise of defendant's right of self-defense, he could be found guilty of involuntary
manslaughter."] italics added; People v. Benavides (2005) 35 Cal. 4th 69,103 [explaining McGee.].)
Reversible federal constitutional and state-laws errors occurred.
The given instructions failed to inform the jury that it could not convict petitioner of murder, or
voluntary manslaughter, with malice aforethought, and that it could only convict him of involuntary
manslaughter for an "unlawful killing," if the prosecution failed to prove, beyond a reasonable doubt,
malice aforethought- either express malice (specific intent to kill) or implied malice (conscious disregard
for life). (Calcrim No. 580; (2020 ed.) p.357 [Imperfect self-defense is a 'mitigating circumstance' that
'reduces an international unlawful killing from murder to voluntary manslaughter by negating the
element of malice that otherwise inheres in such homicide.'...However, evidence of imperfect selfdefense may support a finding of involuntary manslaughter, where the evidence demonstrates the
absence of (as opposed to the negation of) the elements of malice."]. Thus, the jury was never told,
inter alia, that it had the further option of convicting petitioner of a criminal offense - l.e., involuntary
manslaughter - instead of having to acquit him of (and set him free), if it did not find the requisite
malice aforethought for, the greater offenses of murder and voluntary manslaughter.

When viewed through the Anderson "optic/' the trial evidence does not suffice to support the
requirements for deliberation and premeditation:
As to the first Anderson factor or guideline, there is no evidence of any "planning" activity" "intended to
result in [j the killing" of the victim (Curtis). (Anderson, supra, 70 Cal.2d at pp. 26-27.) There is no direct
or circumstantial evidence, and no reasonable inference to be drawn from any trial evidence, either that
petitioner brought along a knife with him, with the intent to kill Curtis, when driving to pick up a
stranded and cold Curtis (and his "girlfriend" Castro); or that petitioner ever formed any intent to kill (or
even harm or hit) Curtis before picking him pu. (See e.g., People v. Williams (2018)23 Cal.App.5th 396,
411.)
The only solid and credible evidence (and reasonable inferences therefrom) in the People's case in chief
concerning why, in the early morning hours, petitioner went to the trouble of picking up Curtis (instead
of going back to sleep before going to work later in the morning), was that a fellow crack-cocaine user
(Curtis) know to petitioner called and offered to put some money in petitioner's pocket in consideration
for a ride, and that two of them might score and used "crack" cocaine together. (1RT110-112,114,
120,164,166,184-185; 2RT 392-393, 401, 553-555, 566-569, 581; 3RT 627-630, 652-654.)
As to the second Anderson factor, there is no evidence of any "motive" for petitioner to kill (or even to
harm) Curtis based on their "prior relationship and/or conduct." (Anderson, supra, 70 Cal.2d at p.27.) In
her various accounts to police investigators and at trial, Castro consistently described petitioner as a
"friend" of Curtis, and she said the two men were being "friendly" with one another in the car up until
after they smoked together "crack" supplied by petitioner, and after they sought out more "cracl/ in the
Empress Street area, near the tail-end of the ride around 5AM (Rtll, 113,122,188;2RT 388,392-393,
553 565; l_CT 231.)
The record is devoid of any "motive" evidence of any "bad blood" or "beef' between the two men
predating the incident. (See e.g.. People v. Rivera (2019) 7 Cal.S* 306,325, People v. Wear (2020) 44
Cal.App.5th 1007,1029.) That Curtis and petitioner spent almost a couple of nonviolent hours together,
during the wee hours, looking for crack cocaine to buy and use together, between the time that
petitioner picked up Curtis and Castro at the AM/PM store and the time of Curtis' death, speaks volumes
regarding the lack of any prior motive on the part of the petitioner to kill Curtis.
As to the thrid Anderson factor, there is no evidence of any "facts about the nature of thek illing" from
which the jury could reasonably infer that "the manner of killing was so particular exacting that
[petitioner! must have intentionally killed according to a 'preconceived design' to take his victim's life in
a particular way for a 'reason' which the jury can reasonably infer from facts of type (1) or (2)."
(Anderson, supra, 70 Cal.2d at p.27.)
Incontrovertible and objective medical-expert evidence established that Curtis sustained, and died from,
a single knife wound that caused a 3 %-inch-wide, "horizontal" "incisional" exterior wound or
"laceration" - and not a "stab" wound (I.e., a wound whose interior depth is much greater than its
length on the skin) - in the left side of the torso. (1RN 265-266, 272-274, 279, 290, 292-294; 3RT 374.)
(See People v. Osband (1996) 13 Cal.4th 622,682 [victim sustained a "stab wound" and not a "laceration"

(l.e. "as if [the victim] had brushed or pushed against a knife blade held parallel to the skin")].) The
particular physical characteristics of Curtis; knife wound were also consistent with the explanation in
Osband, supra, 13 Cai.4th at p.682, of a "laceration" )as distinguished from a "stab") resulting from the
victim "brush[ingj or pushing] against a knife blade held parallel to the skin." there is no evidence that
the petitioner the "targeted the victim's chest and heart.'
Further evidence of the lack of any "calculation" on the part of petitioner was the absence of
petitioner's prescription glasses at the time of Curtis' fata! knife wound. Logically, someone who is
missing glasses needed to see dearly another person at close range and in the dark (and see whether
that person is or is not holding any weapon) at the critical moment of using a knife against that person
has not made "a cold, calculated decision to kill." More reasonably likely explanations than a cold
calculation are either: (1) that the knife is being used for self-protection (whether or not justified by the
circumstances), or (2) that the knife is being used during "an unconsidered explosion of violence" (Pride,
supra, 3 Cal.401 at pp. 247-248) or as "the result of mere unconsidered or rash impulse hastily executed."
(People v. Thomas (1945) 25 Cal.2d 880,900-901).
Here, the killing of Curtis occurred only after Curtis' violence inside of the car knocked petitioner's much
-needed prescription glasses off his head, and petitioner was left to defend himself, using his blurry
vision, outside the car. When the stabbing occurred, petitioner still did not have his glasses on. (1RT
231.) When the stabbing occurred, petitioner still did not have his glasses on. (1RT 203.) According to
Castro, a "distraught" petitioner told her he could not dial 911 on his cel! phone because "I can't see, I
don't have my glasses," and asked for her help; Castro dialed the cell phone and handed it back to him
to talk to the 911 operator. (1RT 144, 203; 2RT 559-560, 579-580; 3RT 643-644.)
Thus, without the benefit of clear vison, petitioner's swinging of the knife from side to side, in the space
between Curtis and him, that caused a single side wound, cannot reasonably constitute "facts about the
nature of the killing" from which the jury could reasonably infer that "the manner of killing was so
particular and exacting that [petitioner] must have intentionally killed according to a 'preconceived
design' to take his victim's life in a particular way for a Yeson' which the jury can reasonably infer from
facts of type (1) or (2)." (Anderson, supra, 70 Cal.2d at p.27.)
B. The victim's own unprovoked, violent provocations inside and outside of appellant's car sparked "an
unconsidered explosion of violence" by petitioner that resulted in the victim's death.
Other circumstances beyond the Anderson factors also point to Curtis bringing on his own death by
suddenly initiating unprovoked violence upon petitioner while petitioner was driving: The victim's
provocations clearly sparked "an unconsidered explosion of violence' by petitioner and a killing that was
not "calculated." (Pride, supra, 3 Cal.4* at pp. 247-248.)
Castro consistently said that it was her "boyfriend" Curtis alone who initiated unprovoked and sudden
violence in the car: While petitioner was driving with his seat belt on and the car was still moving, Curtis
leapt from the front passenger seat on top of petitioner, pinned him down, and got him in a "chokehold" or "head lock."7 (1RT 128,192-196, 213-214; 2RT194-295, 402, 410, 556, 572-573, 575, 582; 3RT
632-635, 655-656.)
Because there is substantial evidence that, without intending to hit the victim with the knife, petitioner
swung the knife solely to ward off his rapidly-advancing attacker and, without due caution or

I

an intent to kiil or a conscious disregard for life. Such a killing cannot be voluntary manslaughter
because voluntary manslaughter requires either an intent to kill or a conscious disregard for life." (Id. At
p. 970)
The Bryant Court declined to decide an alternative contention, not considered in the Court of Appeal,
that "because assault with a deadly weapon is not an inherently dangerous felony, the trial court erred
in failing to instruct the jury on the theory of involuntary manslaughter recognized in Burroughs, supra,
35 Cal.Bd 824 [.]' (Bryant I, supra, 56 Cal.4th at pp. 970-971.)
In her concurring opinion in Bryant, Justice Kennard explained why "a killing during an assault with a
deadly weapon is involuntary manslaughter." (Bryant I, supra, 56 CaW* at pp. 972-974 (cone. Opn. Of
Kennard,J.) "(T]he felony of assault with a deadly weapon is not listed in section 189's enumerated
felonies. Nor is that offense a Non assaultive felony inherently dangerous to life; rather, it is an
assaultive felony to which, Chun4 said, the second degree felony-murder rule does not apply." (id. At p.
973 (cone. Opn. Of Kennard, J.).) "A killing during an assault with a deadly weapon can be murder if the
prosecution proves that the defendant acted with malice aforethought, but the circumstances that a
killing occurs during an assault with a deadly weapon does not make the killing murder. Because assault
with a deadly weapons is not one of the felonies [specified in section 198]." (id. At p. 973 (cone. Opn. Of
Kennard, J.), original italics.)
In the post-remand case in people v. Bryant (2013) 222 Cal.App.4th 1196 ("Bryant II"), a Court of Appeal
concluded that "it is undisputed that there is no authority holding that an unlawful killing committed
without malice in the course of an assaultive felony constitutes the crime of involuntary manslaughter."
(Bryant II, supra, 222 Cal.App.401 at pp. 1200,1206, bold italics added.) "[E]ven assuming that the jury
instruction that Bryant proffers ...is a correct statement of the law, under binding authority, the trial
court had no sua sponte duty to provide such instruction in this case." (Id. At pp. 1200-1201.) Under
Flannel, supra, 25 Cal.3d at p. 681, the legal concept in the defense-sought instructions had "inadequate
elucidation" and thus could not be considered a general principle of law requiring a sua sponte
instruction. (Bryant II supra, 222 Cal.App.4th at pp. 1200,1205-1206 [citing Bryant I, supra, 56 Cal^ at
p. 975 (cone. Opn. Of Kennard,J.)].)
After Bryant II another Colurt of Appeal has held that .when the evidence presents a material issue as to
whether a killing was committed with malice, the court has a sua sponte duty to instruct on involuntary
manslaughter as a lesser include offense [of murder], even when the killing occurs during the
commission of an aggravated assault." (People v. Brothers (2015) 236 Cal.App4th 24,35)
The Brothers court pointed to this Court's decisions in Burroughs and Bryant I as support for the
proposition that section 192 does "encompass an unintentional killing in the course of a Non inherently
dangerous felony committed without due caution of circumspection." (Brothers, supra, 236 Cal.App.4th
at p. 31 [citing Burroughs, supra, 35 Cal.3d at p. 835, and Bryant I, supra, 56 Cal.4th at p.966].)
Under the authority of Chun and Bryant, "when the underlying felony is an assaultive crime, the assault
merges with the homicide; and application of the felony murder rule is prohibited." (Brothers, supra,
236 Cal.App.4* at p.31 [citing Chun, supra, 45 Cal.4th at p. 1200, and Bryant I, supra, 56 Cal4th at p.966].)
The Brothers court took note of the holding in Bryant II that "[ajssuming, without deciding, that an
involuntary manslaughter instruction was warranted by the evidence,... there was no sua sponte duty to

give the instruction because the rule had not been well clarified or understood prior to Bryant [1]."
(Brothers, supra, 236 Cal.App4th at p.33 [explaining Bryant II, supra, 222 Cal.App.4th at p. 1205.)
The Brothers court agreed with the attorney general's "technically correct" contentions that Bryant I did
not reach the issue of whether "a homicide committed without malice during the course of an
inherently dangerous felony not otherwise amounting to felony murder was involuntary manslaughter";
and that Justice Kennard's concurring opinion in Bryant I "is not controlling." (Brothers, supra, 236
Cal.App.4th at p. 33.)
"However, if an unlawful killing in the course of an inherently dangerous felony without malice must be
manslaughter (People v. Hansen [(19940) 9 Cal.4th [300'j 312) and the offense is not voluntary
manslaughter (Bryant [I], supra, 56 Cal.4th at p. 970), the necessary implication of the majority's decision
in Bryant is that the offense is involuntary manslaughter." (Brothers, supra, 236 Cal.App^ at pp. 33-34,
italics added.)
"Accordingly, an instruction on involuntary manslaughter must be given when a rational jury could
entertain a reasonable doubt that an unlawful killing was accomplished with implied malice during the
course of an inherently dangerous assaultive felon." (Brothers, supra 236 Cal.App4th at p. 34) "'Such
instructions are required only where there is "substantial evidence" from which a rational jury could
conclude" the defendant committed the lesser, but not the greater, offense." (Id. At p. 34.)
Here, the Court of Appeal strongly implies that a defendant who is using a knife in unreasonable selfdefense and thereby is engaging in "inherently dangerous assaultive felony conduct" is "satisfying the
objective component of implied malice as a matter of law" and, therefore, cannot exhibit the requisite
subjective mental state required for involuntary manslaughter. (Opn., pp. 13-14; Order denying
rehearing, p.2.) the direct appeal has put squarely before the Court of Appeal substantial trial evidence
of petitioner's subjective lack of malice and lack of "due caution and circumspection."
In short, the Supreme Court is being asked here to clear up this doctrinal confusion ift decisional law and
to declare that a sua sponte duty to instruct on involuntary manslaughter does exist in a murder case
involving substantial evidence of an inherently dangerous assaultive felony being committed without
express or implied malice and without due caution or circumspection; and to decide further that a trial
court's failure to carry out that sua sponte instructional duty under such posited circumstances
constitutes reversible state law and/or federal constitutional errors.
As to issues 3 and 4, the petition is also being filed to exhaust state-reviewing-court remedies for federal
habeas corpus purposes. (Cal. Rules of Court, rule 8.508; O'Sullivan v. Boerckel (1999) 526 U.S. 838, 843
[119 S.Ct. 1728,144 L.Ed.2d 1).)

2(People v Flannel (1979) 25 Cal.3d 688.)
3(ln re Christian S. (1994) 7 Cal.4th 768.)

(Blakeley, supra, 23 Cal.4th at pp. 98-99 (dis. Opn. Of Mosk, J.), Italics added.)
4(People v. Chun (2009) 45 Cal.4th 1172,1188-1189.)

REASONS FOR GRANTING THE PETITION
Petition should be granted because there was insufficient evidence to satisfy the
deliberation/premditation requirement for first-degree murder, petitioner's federal due-process rights
were violated. The Anderson factors for deliberation and premeditation were not met. The victim's
own unprovoked vilent provocation inside and outside of the appellant's car sparked "an
unconsidered explosion of vilence" by petitioner that resulted in his own death. There is submstatial
evidence that without indending to hit the victim with the knife, petitioner woung the knife solely to
ward off his rapidly advancing attacker and, without due caution or circumspection, inflicted an
unintended, single, and fatal knife wound, the trial court should have instructed sua sponte on
involuntary manslaughter.
Substantial evidence supports the sua sponte instruction on involuntary manslaughter. Reversible
federal consitiuional and state law erors occurred.
This case shows that the law is being applied incosistantly when it comes to sua sponte instruction to
the jury.

Review is being sought herein, pursuant to rule 8.500 (b) (1) of the California Rules of Court, in order to
secure uniformity of decision and/or to settle the important questions of California law that are posed in
Issues 1 and 2.
In People v. Burroughs (1984) 35 Cal.3d 824, overruled on another ground in People v Blakeley (2000) 23
Cal. 4th 82, this Court declared: "We agree that the only logically permissible construction of section 192
is that an unintentional homicide committed in the course of a Non inherently dangerous felony may
properly support a conviction of involuntary manslaughter, if that felony is committed without due
caution and circumspection." (Burroughs, supra, 35 Cal.3d at p. 835.) "'Due caution and circumspection'
within the meaning of section 192 is equivalent to criminal negligence, which is conduct that is "'such a
departure from what would be the conduct of an ordinarily prudent or careful man under the same
circumstances as to be incompatible with a proper regard for human life, or in other words, a disregard
of human life or indifference to consequences.'" (People v. Penny (1955) 44 Cal.2d 861,879.)"
(Burroughs, supra, 35 Cal.3d at p 835, fn.9, italics added.)

In Blakel, this Court held that "when a defendant, acting with conscious disregard for life and the
knowledge that the conducts is life-endangering, unintentionally but unlawfully kills while having an
unreasonable but good faith belief in the need to act in self-defense," the defendant is guilty of
voluntary manslaughter. (Blakeley, supara, 23 Cal4th at pp. 85, 88-89,91 (maj. Opn. Of Kennard, J.),
italics added.) "in his dissenting opinion in case, Justice Mosk contends that a defendant who kills in
unreasonable self-defense may sometimes be guilty of involuntary manslaughter. We have no quarrel
with this view." (Id. At p 91 (maj. Opn.), bold italics added.)
In his dissent in Blakeley, Justice Mosk said:\"[A}n actor who entertains an actual, but unreasonable,
belief in imminent danger of death or great bodily injury may happen not to harbor malice aforethought
implied in a wonton disregard for human life. Wantonness, at least, may be lacking. To quote Flannel's 2
categorical statement....:"[M}allice [aforethought],' including, of course, implied malice aforethought,
"cannot coexist with such [a] ...belief"...To quote Christian S.,3 which is categorical as well: A person
"who acts with" an "actual belief in the necessity for self-defense does not act with the...required"
wantonness."

(Blakeley, supra, 23 Cal.4th at p. 99, fn. 2 (dis. Opn. Of Mosk, j.) origi Justice Mosk continued:
That an actual, but unreasonable, belief in imminent danger of death or great bodily injury may prove to
be preclusive with respect to the mental state required for voluntary manslaughter, namely, a state of
mind that amounts in fact to malice aforethought, leads to no untenable result. Surely, it does not grant
any immunity to any actor who commits an unlawful killing. For practically by definition, an actor who
entertains such belief acts "without due caution and circumspection" (Pen. Code, S 192, subd. (b).)
Hence if he is guilty of nothing else, he must be guilty of involuntary manslaughter.
In People v. Bryant (2013) 56 Cal. 4th 959 ("Bryant 1"), this Court concluded that :a killing without malice
in the commission of an inherently dangerous assaultive felony is not voluntary manslaughter." (Bryant
I, supra, 56 Cal.4th at p. 970, italics added.) The Court reasoned: "A defendant who has killed without
malice in the commission of an inherently dangerous assaultive felony must have killed without either

Moreover, the trial court's failure to instruct with CALCRIM No. 580, in the face of substantial evidence
supporting these instructions, "violated petitioner's constitutional rights to have the jury determine
every material issue" {People v. Abilez (2007) 41 Cal.4th 472, 515; People v. Cook (2006) 39 Cal.4th
566,596.)
The prosecution's case was not an open and shut one: The jury labored in its deliberations about 6 hours
over two days. (1CT 272-275, 300.) (People v. Woodward (1979) 23 Cal.3d 329, 341.)
Castro, the sole eyewitness, who smoked "crack" in the car with Curtis and petitioner shortly before
Curtis's fatal knifing happened, was anything but a model witness for the prosecution, giving materially
inconsistent and uncertain accounts - to law enforcement and defense investigators and at trial - of
what happened inside and outside the care, and regarding who said or did what, where and when, Yet,
Castro's and petitioner's accounts dovetailed as to key fact:
(1) that Curtis initiated and unprovoked and violent physical altercation inside the car that included a
choke hold that might "choke out" petitioner, while petitioner was still driving;
(2) that petitioner's knife struck Curtis' left side during that continuing altercation;
(3) that petitioner's knife struck Curtis' left side during that continuing altercation;
(4) that the entire event was pretty quick;
(5) that petitioner was in shock in the aftermath; and
(6) that Castro dialed 911 on petitioner's cell phone because he could not see without his glasses.
Because the federal constitutional errors here cannot be considered harmless beyond a reasonable
doubt, reversal of the judgement as to Count 1 is required. (Neder, supra, 527 U.S. at pp. 4,12-13,15;
Flood, supra, 18 Cal^* at p. 481; Chun, supra, 45 Cal.4th at p. 1201.)
Even under the Watson state-law prejudice standard, reversal would still be required for the very same
reasons: There was at least a "reasonable chance" of a more favorable trial outcome - l.e., an
involuntary manslaughter verdict of guilty, or a not-guilty or hung-jury result (Soojian, supra, 190
Cal.App.4th at pp. 519-521) on the murder charge - than the murder verdict did occur. (Braverman,
supra, 19 CaU^at p. 178.)

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully
Carl W Frazier

Date: 08/11/2021

